OFFICE OF INSPECTOR GENERAL 

for the Millennium Challenge Corporation




AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION
PROGRAMS IN MADAGASCAR


AUDIT REPORT NO. M-000-08-001-P
December 28, 2007




WASHINGTON, DC

          Office of Inspector General
             for the
          Millennium Challenge Corporation



          December 28, 2007


          The Honorable John J. Danilovich
          Chief Executive Officer
          Millennium Challenge Corporation
          875 Fifteenth Street, N.W.
          Washington, DC 20005


          Dear Mr. Ambassador:

          This letter transmits the Office of the Inspector General’s final report on the Audit of the
          Millennium Challenge Corporation’s Programs in Madagascar. In finalizing the report, we
          considered your written comments on our draft report and included those comments in their
          entirety in Appendix II of this report.

          The report contains four audit recommendations for corrective action. Based on your response
          to our draft report, we revised recommendation number 1, combining our initial recommendation
          number 3 with number 1 and renumbered the remaining recommendations. We consider that a
          management decision has been reached on recommendations 2, 3, and 4. At the time MCC
          provides a response to the revised recommendation number 1, a management decision can
          then be made. Final action for the recommendations must be determined by MCC, and we ask
          that we be notified of the MCC’s actions.

          I appreciate the cooperation and courtesy extended to my staff during this audit.

          Sincerely,


          John M. Phee /s/
          Assistant Inspector General
          Millennium Challenge Corporation




U.S. Agency for International Development
1300 Pennsylvania Avenue
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objectives ................................................................................................................ 4


Audit Findings ................................................................................................................. 5 


Did the Millennium Challenge Corporation ensure that the

Millennium Challenge Account-Madagascar established

proper performance milestones and targets for its MCC-

funded programs? ............................................................................................................. 5 


     MCA-M Staff Needs More Guidance 

     to Understand How to Collect and 

     Evaluate Performance Milestones and 

     Targets ........................................................................................................................ 5 


     Program Indicators and Targets Should

     Be Improved................................................................................................................ 8 


Is the Millennium Challenge Corporation program in

Madagascar achieving its performance milestones and 

targets in its MCC-funded programs? ............................................................................. 10 


     Various Constraints Threaten MCA-M’s 

     Ability to Achieve Performance 

     Milestones and Targets............................................................................................. 11 


Did the Millennium Challenge Corporation’s reporting on 

the program in Madagascar provide stakeholders with 

complete and accurate information on the progress of the

program and the results achieved?................................................................................. 15 


     Internal Control Weaknesses Could 

     Impact the Reliability of Reported 

     Results ...................................................................................................................... 15


     Reported Data to MCC Stakeholders 

     Did Not Accurately Reflect the 

     Compact Projects’ Current Progress in 

     Madagascar .............................................................................................................. 18 


Evaluation of Management Comments ....................................................................... 21 


Appendix I – Scope and Methodology ........................................................................ 23 

Appendix II – Management Comments ....................................................................... 25 


Appendix III – Explanation of Vatomandry
ABC’s Interpretation of the ABIP
Indicators Compared to the
Correct Interpretation Based on
the 2007 M&E Plan ....................................................................................................... 29 


Appendix IV – Analysis of Whether the Faratsiho
Land Tenure Office Had Supporting
Documents for the Data Results It
Reported to MCA-M...................................................................................................... 30

This page intentionally left blank.
SUMMARY OF RESULTS

On April 15, 2005, Madagascar became the first country to receive a compact1 when
Millennium Challenge Corporation (MCC) and the Republic of Madagascar signed a
four-year, $110 million agreement. The compact entered into force2 on July 27, 2005,
and Madagascar received its first disbursement from MCC on that same date. The goal
of the compact was to increase incomes in rural areas by enhancing land security,
increasing competition in the financial sector, and increasing investment in farms and
other rural businesses. The Government of Madagascar designated the Millennium
Challenge Account-Madagascar (MCA-M) as the accountable entity that would have the
legal authority to oversee the implementation of the compact programs during the
compact period (see page 3).

The objectives of the audit were to determine whether (1) MCC ensured that the MCA-M
established proper performance milestones and targets for its MCC-funded programs;
(2) the MCC program in Madagascar achieved its performance milestones and targets in
its MCC-funded programs; and (3) MCC’s reporting on the program in Madagascar
provided stakeholders with complete and accurate information on the progress of the
program and the results achieved (see page 4).

The audit team visited 4 of 23 field offices located in other regions of the country and
found that MCC provided limited oversight to ensure that MCA-M and those four field
offices fully understood the importance of a consistent data collection method and the
definition of the project indicators in the Monitoring and Evaluation (M&E) Plan3;
constraints threaten MCA-M’s programs ability to achieve their performance milestones and
targets; and MCA-M’s reporting to its stakeholders did not always provide complete and
accurate information on the results of the compact programs in Madagascar (see pages
5, 9, and 14).

This report includes four recommendations to MCC’s vice president of compact
implementation and vice president of congressional and public affairs to (1) issue
clarifying guidance to the Millennium Challenge Account-Madagascar and its staff
regarding methodologies involving data collection and specific definitions of indicators to
its field offices and implementing entities; (2) reassess and revise the targets for the
finance project, and document the new targets in a revised M&E Plan by March 31,
2008; (3) issue guidance on the methodology MCA offices should use to conduct a
quality control assessment of prior data before importing them into a new database
system, and how MCC staff should test the accuracy of the data during site visits; and
(4) disclose the effective date of the information being used in reports to stakeholders
(see pages 8, 10, 18, and 19)




1
  A Compact is a multiyear agreement between MCC and an eligible country to fund specific
programs targeted at reducing poverty and stimulating economic growth.
2
  According to MCC officials, entry into force is the point at which a binding commitment is
recognized and compact funds are obligated.
3
  Describes the plan to measure and evaluate progress toward achievement of the objectives of
the Compact.


                                                                                           1
Appendix II contains the management comments in their entirety. In its comments, MCC
concurred with all of the recommendations as originally stated but mentioned that they
have already performed the required tasks or are in the process of making the changes.
For example, MCC mentioned that it has trained its MCA-M staff and will conduct its
second annual data quality review in mid-2008. Furthermore, MCC and MCA-M are
currently in the process of revising the indicators for the Finance Project, and have
begun to reference the data that it includes in its reports to its stakeholders. (See pages
21-22.)




                                                                                     2
BACKGROUND
Established in January 2004, the Millennium Challenge Corporation (MCC) is a U.S.
Government corporation designed to work with some of the poorest countries in the
world. Based on its performance against MCC’s 17 policy indicators, a country may
become eligible to receive a compact, which is a multiyear agreement between MCC
and the country to fund specific programs targeted at reducing poverty and stimulating
economic growth. One of MCC’s goals is to assist eligible countries that have developed
well-designed programs with clear objectives, benchmarks to measure progress, and a
plan for effective monitoring and objective evaluation of results.

On April 15, 2005, Madagascar became the first country
to receive a compact when MCC and the Republic of                   Figure 1
Madagascar signed a four-year, $110 million agreement.
The compact entered into force on July 27, 2005, and
Madagascar received its first disbursement from MCC on
the same date. The goal of the compact was to increase
incomes in rural areas by enhancing land security,
increasing competition in the financial sector, and
increasing investment in farms and other rural
businesses. The Government of Madagascar designated
the Millennium Challenge Account-Madagascar (MCA-M)
as the accountable entity that would have the legal
authority to oversee the implementation of the compact
programs during the compact period.

Madagascar’s compact had three major projects
assisting five targeted zones throughout the country (see
Figure 1). The $37.8 million Land Tenure Project was
designed to formalize the country’s titling and surveying  Map of MCA-M’s targeted
systems, modernize the national land registry, and         zones of intervention.
decentralize services to rural citizens. The $35.9 million
Finance Project was designed to make financial services available to rural areas,
improve credit skills, and create a streamlined national payments system to reduce
check settlement delays from 45 to 3 days. The $17.7 million Agricultural Business
Investment Project (ABIP) was designed to help farmers and entrepreneurs identify new
markets and improve their production and marketing practices.4

Section 609(b)(1)(c) of the Millennium Challenge Act requires that each compact include
benchmarks to measure progress toward achieving objectives, which is documented in
the Countries Monitoring and Evaluation Plan (M&E). In addition, MCC is required to
submit an annual report to Congress, which includes an assessment of the progress the
country makes during each year toward achieving the objectives in the compact. MCC
works with the country to ensure that proposed programs are reasonable, measurable,


4
 The remaining amount is $3.4 million for monitoring and evaluation, and $15 million for project
administration.


                                                                                             3
and attainable, although MCC’s compact with the Government of Madagascar states
that MCA-M is responsible for the oversight and management of the program’s
implementation.



AUDIT OBJECTIVES
The Office of the Assistant Inspector General for the Millennium Challenge Corporation
(MCC) conducted this audit as part of its fiscal year 2007 audit plan. The objectives of
this audit were to answer the following questions:

•	 Did the Millennium Challenge Corporation ensure that the Millennium Challenge
   Account-Madagascar established proper performance milestones and targets for its
   MCC-funded programs?

•	 Is the Millennium Challenge Corporation program in Madagascar achieving its
   performance milestones and targets in its MCC-funded programs?

•	 Did the Millennium Challenge Corporation’s reporting on the program in Madagascar
   provide stakeholders with complete and accurate information on the progress of the
   program and the results achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                   4
AUDIT FINDINGS

Did the Millennium Challenge Corporation ensure that the
Millennium Challenge Account-Madagascar established proper
performance milestones and targets for its MCC-funded
programs?
The Millennium Challenge Corporation (MCC) provided limited oversight to
ensure that MCA-M and field offices that the audit team visited (2 of 17 land
tenure offices and 2 of 6 Agricultural Business Centers) fully understood the
importance of a consistent data collection method and the definition of the project
indicators in the M&E Plan. Even though, MCC had worked with the Millennium
Challenge Account Madagascar (MCA-M) in the initial stages of the compact to
develop the Monitoring and Evaluation (M&E) Plan, work plans, and procurement
plans to establish proper performance milestones and targets. The four field
offices that the audit team visited received little guidance from MCA-M and their
respective implementing entities when they first opened, which led them to
develop unique methods of collecting their data and interpreting project
indicators. Additionally, MCC did not establish proper targets for the compact’s
Finance Project. Due to the low targets that MCC and MCA-M established for the
Finance Project, several of the indicators exceeded their targets even though the
project had not reached the implementation phase. This may be attributed in part
to other activities that have contributed to Madagascar’s economic environment
such as the country’s growing gross domestic product.

With the initial assistance from MCC, MCA-M had taken many positive steps to improve
its ability to further develop its milestones and targets. While the audit team conducted
its site visit in Madagascar, MCA-M was completing implementation of a new M&E
tracking system (TecPro), which would enable it to monitor and determine if it should
maintain or change some aspects of the programs. MCA-M has also taken steps to
ensure that field offices received sufficient training to use TecPro. Additionally, the Land
Tenure Project’s implementing partner had begun to use new standardized forms and
was in the process of developing a new data collection system.


MCA-M Staff Needs More Guidance to
Understand How to Collect and Evaluate
Performance Milestones and Targets

  Summary: MCA-M field offices did not have a consistent data collection method,
  and each office defined the indicators differently. `The MCC’s Guidance for
  Compact Eligible Countries, Chapter 29: Guidelines for Monitoring and Evaluation
  Plans, states that indicators should be clearly identified and defined, including the
  unit of measurement and data source. Further, that a data collection plan should
  specify who will collect data, how it will be collected, and the frequency of


                                                                                          5
    collection. Also, that the collection plan should be established prior to beginning
    activities that will affect beneficiaries. Government Accountability Office’s (GAO)
    Standards for Internal Control in the Federal Government5 states that good human
    capital policies and practices are a critical environmental factor, in order to run and
    control its operation; an entity must have relevant, reliable, and timely
    communications. In addition, pertinent information should be identified, captured,
    and distributed in a form and timeframe that permits people to perform their duties
    efficiently, and part of good human capital management involves ensuring proper
    orientation and training. Inconsistent data collection and incorrect interpretation of
    the indicators persisted because according to field office staff, MCA-M had not
    provided them with any specific guidance explaining how they should collect and
    report data. MCC provided little guidance to MCA-M to ensure that the field offices
    followed a data collection method and understood the indicators in the January
    2007 M&E Plan. As a result of the lack of guidance, inconsistency of the data
    collection process, and misinterpretation of indicators, there is an inherent risk that
    the data that MCA-M reported to MCC may not be reliable and limits MCC’s ability
    to accurately evaluate the performance of the programs over the life of the compact

The MCA-M field offices that the audit team visited—2 of 17 guichet fonciers (land
tenure offices) and 2 of 6 Agricultural Business Centers (ABCs)6—did not use a
consistent data collection method and developed their own interpretations of the
indicators when reporting on the milestones and targeted results to MCA-M.

To keep abreast of each office’s progress, MCA-M requires that the field offices submit
monthly and quarterly reports on the status of their respective projects. However, each
field office used different methods of collecting data and reporting data against
planned milestones/targets to MCA-M headquarters and there was not a consistent
method of collecting data and reporting to MCA-M. For example, the ABC in Antsirabe
required the farmers who received assistance to collect their own data and report their
results to the ABC. The ABC found that typically only 20 percent of the farmers properly
completed the paperwork, though with additional assistance from the service providers
and ABC’s field representatives, that figure eventually climbed to 80 percent. Some of
the farmers may have been unqualified to collect the data, resulting in data error.
Conversely, at the ABC office in Vatomandry, the district agents7 collected and verified
the data.

Agents at the Vatomandry ABC misinterpreted the indicators in the January 2007 M&E
Plan. Although they were knowledgeable about the M&E process, they misunderstood
the definition of some of the Agricultural Business Investment Project (ABIP) indicators.
For example, for the indicator, “number of business plans,” the ABC reported business
plans only if they had been written, validated, and used to obtain financing. The agent
said it was not good enough to simply write a business plan for a beneficiary; the ABC
wanted to ensure that the business plan could actually secure funding. However, the


5
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1). 

6
  As the finance project implementation was in its early state, the audit team did not visit any of 

the field offices. 

7
  Service providers are contractors who work for the field offices, the field representatives are 

employees of the field offices who work in a particular location or town, and the district agents are

responsible for the entire district or region where the ABC is implementing the program. 



                                                                                              6
January 2007 M&E Plan did not require a business plan to be financed before it was
reported to MCC. For the indicator, “number of producers utilizing technical assistance
provided to them,” the ABC said it counted the number of individuals who had adopted a
majority of the techniques taught to them by the ABC. For example, if the ABC taught
four technical skills, the beneficiary had to adopt three of them before the ABC could
report it. However, the 2007 M&E Plan did not define what percentage of training
beneficiaries must adopt from the technical assistance training they received.

The ABC also defined the beneficiaries differently than the January 2007 M&E Plan. The
ABC staff stated that when they counted beneficiaries, they counted only the head of the
family. The staff stressed that, for cultural reasons, they counted only the head of a
family because they knew that if the head of a household adopted what the ABC taught,
the rest of the family would follow suit. Refer to Appendix III for more examples.

According to MCC’s Guidance for Compact Eligible Countries, Chapter 29: Guidelines
for Monitoring and Evaluation Plans, states that indicators should be clearly identified
and defined, including the unit of measurement and data source. Further, that a data
collection plan should specify who will collect data, how it will be collected, and the
frequency of collection. Also, the collection plan should be established prior to beginning
activities that will affect beneficiaries.

MCC explained that in July 2006 MCA-M trained its field staff and implementing entities,
on M&E procedures that addressed data collection and indicator definitions, however,
despite the training provided by MCA-M, inconsistent data collection and
misinterpretation of the project indicators persisted because, according to field office
staff, MCA-M and the implementing entities had not provided them with any specific
guidance. Notably, the two land offices that the IG visited claimed that they did not
receive guidance explaining how they should collect and report data, and two ABCs that
the IG visited, claimed that they did not receive training on how to properly collect their
data and understand the indicators.

MCC officials stated that MCA-M had prepared a data collection handbook that outlined
its procedures for ensuring the quality and effectiveness of data collection. However, at
the two land tenure offices that the audit team visited, the staff explained that neither
MCA-M nor the implementing entity had provided them with any specific guidance
explaining how they should collect and report data. An official with the land tenure office
in Faratsiho, the first office to open, stated that when the office opened, MCA-M had not
provided staff with any specific guidance on how they should collect data or write their
report. For example, an MCA-M official stated that the office had distributed the data
collection manuals to the ABCs, land tenure offices, and finance projects; when the audit
team visited the field offices in June 2007, two land tenure offices had not received
formal guidance from the National Land Tenure Program (PNF) until April 2007, even
though the offices opened in February and December 2006.

An MCA-M official agreed that MCA-M provided no guidance to the agents but added
that PNF was responsible for monitoring the data. According to the PNF agent working
at this office, it was PNF’s responsibility to provide training and equipment to the land
tenure offices. However, MCA-M did not provide oversight to ensure that PNF had
fulfilled its contracted obligations.




                                                                                     7
Also, the ABC office in Vatomandry received limited guidance and training from MCA-M
when developing its data collection system. Although MCA-M provided some general
training to the ABC regarding MCA-M’s macro level goals and the general procedures
that the ABC should follow, the Vatomandry ABC had to develop its own methodology
for implementing the project, identify regional commodities that it could market, and use
information from other entities such as the Ministry of Agriculture and other international
donors to conduct a diagnostic analysis of the commodities’ economic potential.

Lack of guidance and training also resulted in the lack of a concrete understanding of all
the indicators, particularly those for ABIP. An MCA-M official explained that because
ABIP was not clearly defined in the compact, there was not a clear understanding of who
should be counted as a beneficiary (of ABIP) in the quarterly reports. In addition, lack of
guidance is likely to cause unreliable data being reported to MCC. As the result, MCC
cannot ensure that the results and data for the indicators are in conformance with the
January 2007 M&E Plan. This limits MCC’s ability to accurately evaluate the
performance of the programs over the life of the compact.

Although MCC stated that MCC and MCA-M provided training to MCA’s implementing
offices and field offices staff in July 2006, we found that the staff in some of the land
tenure offices did not fully understand the data collection process and staff in some
ABCs misinterpreted the ABIP indicators. Therefore, the Office of Inspector General is
making the following recommendation:

   Recommendation No. 1: We recommend that the Millennium Challenge
   Corporation’s Vice President of the Compact Implementation Department, issue
   clarifying guidance to the Millennium Challenge Account-Madagascar staff
   regarding methodologies involving data collection and specific definitions of
   indicators to its field offices and implementing entities.


Program Indicators and Targets
Should Be Improved

  Summary: MCA-M has met and exceeded most of the targets for the Finance
  Project indicators even though it has yet to begin the project's main
  implementation phase. MCC’s Guidelines for M&E Plans stated that the M&E Plan
  should help identify when problems are encountered or when adjustments will
  need to be made in implementation. It also mentions that changes to compact
  implementation (such as target revisions) should be reflected in the M&E Plan.
  Nevertheless, targets were set too low based on the projections that the
  implementing entity provided to MCA-M. Low targets make it difficult for MCC and
  MCA-M to manage the project toward realistic results, which in turn affects MCC’s
  ability to accurately evaluate the compact's performance.



MCA-M has exceeded most of the targets for the Finance Project indicators even though
it had yet to begin the project's main implementation phase. Comparing the actual
results to the targets showed that some indicators had surpassed the targets by more
than 100 percent. For example, the indicator Outstanding Value of Accounts from MFIs


                                                                                     8
(microfinance institutions) had results reported that were 157 percent over its target. For
the indicator Number of Saving Accounts from CEM (National Savings Bank), the
cumulative result from quarter 1 to quarter 7 was 100 percent even though very little
work was done. The indicator Value of Outstanding Loans from Primary Banks had
exceeded its targets by 138 percent cumulatively from quarter 1 to quarter 7. Table 1
details these findings.

MCC stated that MCA-M has performed significant work with the microfinance
institutions (MFIs), which began to appear in the results. However, MCA-M has yet to
begin the project's main implementation phase.


Table 1. Analysis of Finance Project Targets

        Indicator        Location             Total from Quarters 1 to Quarters 7
                                          Target            Actual          Percent of
                                                          Achieved            Target
                                                                             Achieved
    Number of Saving    Total Five           215,331           216,343         100%
    Accounts from       Zones
    National Savings
    Bank (CEM)
    Value of            Total Five        59,032,416        81,337,500         138%
    Outstanding         Zones
    Loans from
    Primary Banks
    Outstanding Value   Total Five         5,378,490          8,431,410        157%
    of Accounts from    Zones
    Microfinance
    Institutions

According to MCC’s Guidelines for M&E Plans, “Over the life of the Compact, the M&E
Plan should help identify when problems are encountered or when adjustments will need
to be made in implementation. At the same time, any changes in implementation should
be reflected in the M&E Plan. The M&E Plan should be reviewed periodically and
revised when necessary.”

The Finance Project had met its targets even before implementation because MCC and
MCA-M did not establish proper targets for the project indicators. MCA-M stated the past
targets were underestimated based on the projections from the implementing entity.8
MCA-M determined its targets based on the fact that the new branches would be built on
time, but they have yet to be constructed. In addition, the targets were set based on
year-end totals that were expected to fluctuate throughout the year with the cash needs
and surpluses of rural farmers. To simplify the calculations, MCA-M evenly divided the
yearly targets across four quarters, knowing that the quarterly targets would be
imprecise.


8
  MCA-M has three primary implementing entities: Central Bank of Madagascar, Ministry of
Finance and Budget, and National Savings Bank.



                                                                                      9

An MCA-M official explained that when MCA-M staff prepared the targets for the finance
project, they took into consideration the fact that the MFIs were getting help from donors,
but in the next few years, assistance will decline and so will the number of MFIs in
Madagascar. For this reason, MCA-M lowered the targets for the Finance Project, as
they may be difficult to achieve during the next few years. Additionally, he explained that
it may be difficult to assess certain indicators at certain times of the year because
farmers’ savings change considerably during the year. For example, at the end of the
harvest farmers had large savings, but during the middle of the growing season their
savings were low.

Because targets were set low, they affected MCC’s ability to accurately evaluate the
Financial Project’s performance. Setting the targets low also increases the risk that MCC
may not be able to determine whether its activities will realize the most effective use of
its limited resources to achieve its planned compact-wide goals. Thus, the indicators
should be assessed on a yearly basis. Therefore, the Office of Inspector General is
making the following recommendation:


       Recommendation No 2: We recommend that the Millennium Challenge
       Corporation’s Vice President of the Compact Implementation Department,
       reassess and revise the targets for the finance project, and document the
       new targets in a revised Monitoring and Evaluation Plan by March 31,
       2008.


Is the Millennium Challenge Corporation program in Madagascar
achieving its performance milestones and targets in its MCC-
funded programs?
On the basis of the audit team’s analysis, as of March 31, 2007--when the targets should
have been met-- the Millennium Challenge Corporation program in Madagascar is not
achieving its overall performance milestones and targets. For example, five of nine ABIP
milestones and targets that should have been met by March 31, 2007, had not been
achieved; Finance Project milestones and targets had been exceeded, even though
implementation had not yet begun, which showed that MCC and MCA-M set low targets. It
was difficult to assess the Land Tenure Project because its milestones and targets were not
scheduled to be met until the third year of the compact. Therefore, based on the progress
reviewed, the MCC program in Madagascar may not achieve its individual component
programs’ performance milestones and targets, due to various constraints that hindered the
initial implementation of those programs.

Although MCA-M developed work plans9 to complete its projects by the end of the
compact in July 2009, there were indications that MCA-M would have some difficultly


9
 The work plans set forth the details of each activity to be undertaken or funded by MCC as well
as the allocation of roles and responsibilities for specific project activities, programmatic
guidelines, performance requirements, targets, or other expectations for a project (Madagascar
Compact, Annex I-4; Section 3(a)).


                                                                                         10 

completing the projects and consequently achieving its milestones and targets. For
example, delays in the procurement process have prevented the Finance and Land
Tenure projects from starting on time. In addition, ABIP had not met some of its targets,
such as the number of farmers receiving technical assistance, which as of March 31,
2007, was only 78 percent of the targeted 8,450, although it was scheduled to meet 100
percent of its target as of that date. These are examples of some of the constraints that
have hindered the implementation of the Madagascar program and consequently
delayed implementation of the projects.



Various Constraints Threaten
MCA-M’s Ability to Achieve
Performance Milestones and
Targets

  Summary: MCA-M developed work plans to complete its projects by the end of the
  compact in July 2009; according to the compact between MCC and the government
  of Madagascar, the compact shall remain in force for four years from the date of the
  entry into force of the compact. As MCA-M went entry into force on July 27, 2005, it
  has until July 2009 to complete implementation of the three programs However,
  there were indications that MCA-M will have some difficultly completing the projects
  and consequently achieving the milestones and targets in a timely manner. The
  Agricultural Business Investment Program (ABIP) missed five of its nine targets
  through March 31, 2007, when it was required to meet the targets, and MCA-M was
  still in the process of hiring the lead contractor for the project. Moreover, the
  Finance and Land Tenure projects had yet to begin their major implementation
  phases. Program delays occurred because the compact started slowly due to
  various constraints, such as the time needed to establish the MCA office, the failure
  of the procurement process to meet the MCA-M staff’s expectations, and time
  needed to hire key contractors for each project. As a result of the delays, there is
  an increased risk that if MCA-M encounters delays in procurement, such as a major
  contractor not performing adequately, need for resettlement of individuals, and or
  other project-critical items that are falling behind schedule, MCA-M may not have
  enough time to meet all its targets by the end of the compact in July 2009.

MCC issued a four-year compact to the Government of Madagascar even though it had
the ability to award a compact that would allow the country to complete its projects over
a five-year period. According to the compact, it shall remain in force for four years from
the date of the entry into force of the compact. As MCA-M went entry into force on July
27, 2005, it has until July 2009 to complete implementation of the three programs. The
compact’s M&E Plan, revised and issued in January 2007, detailed the various
milestones and targets for the ABIP, Land Tenure, and Finance projects. The M&E Plan
was designed to help analyze MCA-M’s progress toward achieving these goals and
allow MCA-M and MCC managers to make adjustments to improve the overall impact of
the program. To help ensure that the projects remained on track to achieve their
intended goals, MCA-M developed work plans for each project, which set forth the
programmatic details of each activity. In general, work plans allocate the roles and
responsibilities for specific project activities and can include programmatic guidelines,


                                                                                   11 

performance requirements, targets, or other expectations for a project. Each of MCA-M’s
work plans was written so that the projects could be completed by the end of July 2009, the
scheduled completion date for the compact.

The fact that Madagascar was the first country to receive a compact made it difficult to
predict the challenges that MCA-M would face. When MCA-M started its work, MCC staff
suggested that they set ambitious expectations, believing that MCA-M could begin
implementing activities during the first year. MCC quickly learned that MCA-M did not
have the administrative structure to implement its projects during the first year. It took
longer than expected for the MCA-M staff to set up its office and begin its procurement
process. When the compact entered into force on July 27, 2005, MCA-M did not even
have office furniture and had to obtain basic office supplies from other Madagascar
government agencies. Additionally, MCA-M staff stated that the initial work plans did not
include the six months MCA-M needed to establish its office structure, and the initial
schedule did not accurately reflect the time it would take for MCA-M to write its original
contractual terms of reference.10 As a result, as of March 31, 2007, MCC had disbursed
only 12 percent of the compact's funds to MCA-M, and MCA-M had redisbursed only 8
percent of the funds.

Despite these challenges, progress had been made in each project, and MCC and MCA­
M have until July 2009 to achieve the compact’s results. Nevertheless, there are
indications that MCA-M will have some difficultly achieving the targets in the time
remaining. For example, although the compact entered into force on July 27, 2005, the
MCA did not have a functioning office until December 2005, which delayed the beginning
of the projects’ implementation by five months. Further, ABIP had missed four of its nine
targets through March 31, 2007, and was still in the process of hiring the lead contractor
for the project, and the Land Tenure and Finance projects had yet to begin their major
implementation phases. The challenges that face each project are described in detail
below.

ABIP – The goal of this project is to help farmers and entrepreneurs identify new
markets and improve their production and marketing practices. Although MCA-M’s ABIP
planned to meet the following targets by March 31, 2007, ABIP had missed five of the
nine targets (see Table 2 with the audited data).
    •	 Only 78.0 percent of the targeted 8,450 farmers were receiving technical
        assistance.
    •	 Only 10.0 percent of the targeted 60 businesses were receiving technical
        assistance.
    •	 Only 10.0 percent of the targeted 60 businesses were employing technical
        assistance received from MCA-M.
    •	 Only 77.7 percent of the targeted 300 NCC (National Coordinating Center)
        visitors were receiving business opportunity information.
    •	 Only 79.3 percent of the targeted 150 ABC clients had marketing contracts.




10
     A term of reference describes the services that the MCA-Entity needs to purchase.


                                                                                         12 

Table 2: Analysis of ABIP Results that MCA-M Planned to Meet by March 31, 2007


          300%
                                             ABIP Results (Quarters 1-7)

          250%

          200%

          150%

          100%

            50%

             0%                 Farmers Businesses Farmers Businesses NCC ABC clients EnterprisesABC clients
                    Business
                                receiving receiving employing employing visitors       w/     , co-ops, &   w/
                     plans
                               assistance assistance assistance assistance receiving business association marketing

     Percent of Target 143%      78%        10%       104%       10%       78%       165%       263%       79%



The MCC project manager and MCA-M project director explained that the project was
behind schedule for various reasons. For example, the MCC sector lead (project
manager) stressed that the compact got off to a slow start, and due to the large learning
curve associated with the first compact, it took several months to build the internal
capacity of the MCA-M staff. Further, because the implementing entities did not have
experience preparing contracts according to MCC’s process, MCA-M wrote numerous
small contracts to learn how to properly write contractual terms of reference. The MCA­
M project director also cited procurement-related issues, such as the approval process
and in conjunction with the MCC, developing the procurement process to be used by the
MCA-M as a factor for the delays; in addition, she explained that MCA-M spent time
defining the strategy for the project. Because the compact’s description of ABIP was
very vague, the MCA-M staff had to identify the type of activities that would be suited for
ABIP by issuing various smaller contracts to test different approaches. In May 2007, the
MCC sector lead stated that MCA-M had finally reached a major transition point at which
it could hire the primary contractor who would implement the project, but the contractor
was not expected to begin to implement its activities until September 2007, which leaves
less than two years to complete the project. This may not be sufficient time.

Land Tenure – The goal of this project is to formalize Madagascar’s land titling and
surveying systems, modernize the national land registry, and decentralize services to
rural citizens. As of March 31, 2007, the Land Tenure Project had met the two
established targets for that quarter—the number of land documents inventoried, and the
parliamentary approval of the PNF legislative proposal. However, because the majority
of the project’s indicators did not have targets until the end of year three, it was difficult
to evaluate whether the project was on track to achieve its performance milestones and
targets. As of June 2007, MCA-M had not finished the procurement process for the lead



                                                                                                                  13 

contractors that would implement the major phase
of the project, which is to establish 138 land offices
and modernize 10 existing land offices. Thus, it is
impossible to determine whether the contractors
will be able to complete the project by July 2009.

Moreover, the project’s implementing entity11
warned that while it was possible to build the
expected number of land certificate offices by the
end of the compact, the implementing entity              Photograph of MCA-M beneficiary
doubted MCA-M’s ability to secure the projected          holding his land certificate. MCA-M’s
250,000 hectares of land by the end of the               Land Tenure Project is intended to
compact; however, it believed that it could be           issue enough certificates to secure
                                                         243,000 hectares. Photograph taken by
accomplished if the land tenure offices had more         OIG auditor on June 19, 2007.
time to issue titles.

Finance – The goal of this project is to provide financial services to rural areas, improve
credit skills, and create a streamlined national payment system to shorten check
clearances. As discussed on pages 8 to 10, it was difficult to assess the status of this
project because the targets were set too low. Furthermore, there were indications that
the project was not on schedule. For example, MCA-M had not accomplished a number
of key tasks related to the project's main implementation phase—the modernization of
the payment system and the construction of banks—partly due to delays in the
procurement process. Additionally, National Savings Bank (CEM) officials noted that the
interdependency of each activity it managed for MCA-M increased the risk that slippages
in one activity could affect other activities. For example, the CEM needed the new
payment system activity completed to better manage and disburse the funds for a
microfinance activity. As of the date the audit team was onsite, this had not been
accomplished.

Although MCA-M had made progress on each of the three projects, significant tasks
remained to be performed during the implementation phase of the compact. As a result,
MCA-M may not have time to make necessary adjustments to meet all its targets by the
end of the compact in July 2009. The pressure placed on the projects could force
contractors to reduce their level of effort for certain tasks as they struggle to complete
the projects within the remaining time. Some of the MCC and MCA-M staff
acknowledged these pressures, and MCC staff stated that they had already considered
the potential benefits from granting MCA-M additional time to complete the compact.

Since MCC and the MCA-M staff are aware of the potential risk of not completing the
compact programs within the compact timeframe, and are considering options to
address this problem, the Office of Inspector General is not making a recommendation
at this time.



Did the Millennium Challenge Corporation’s reporting on the


11
  A government entity, usually a ministry or agency that works with the MCA to implement a
project.


                                                                                        14 

program in Madagascar provide stakeholders with complete and
accurate information on the progress of the program and the
results achieved?

MCC’s reporting to its stakeholders (Congress, nongovernmental organizations, and the
public) did not always provide complete and accurate information on the results of the
compact programs in Madagascar. MCC used the quarterly reports and data that MCA­
M submitted to provide information to its stakeholders. However, MCA-M and the field
offices did not have proper internal controls to provide reasonable assurance that the
data were reliable and accurate before submitting their reports to MCC. There were
calculation errors in reports the field offices submitted to MCA-M and onward to MCC,
and several field offices as well as MCA-M, did not have a proper method to maintain
supporting documents for their data collection. Additionally, some of the data that MCC
provided in its reports were outdated, resulting in MCC underreporting programs’
progress.


Internal Control Weaknesses Could Impact the
Reliability of Reported Results

  Summary: MCA-M and three of four field offices that the audit team visited had data
  quality weaknesses, such as duplicate entries and the lack of readily available
  supporting documents that contributed to inaccurate data being reported to MCC
  and its stakeholders. According to GAO’s Standards for Internal Control in the
  Federal Government, all transactions and other significant events should be
  documented. GAO further states that a variety of control activities are used in
  information processing, including edit checks for entered data, accounting for
  transactions in numerical sequences, and comparing file totals with control account.
  The data quality weaknesses were due to the lack of internal control measures at
  these offices. Even though MCA-M was in the process of transitioning to a stronger
  data collection system, errors throughout the existing reporting system undermined
  the reliability of previously reported results and threatened to limit MCC’s ability to
  accurately evaluate the compact's performance.

MCA-M had data quality weaknesses, such as duplicate entries, lack of readily available
supporting documentation, and inaccurate calculation of the number of beneficiaries,
that limited the accuracy of reported data. Although MCA-M has taken steps to improve
its data collection system by hiring a database specialist who assisted in collecting and
verifying reported results and creating standardized forms to help eliminate
inconsistencies in the data, these improvements did not completely eliminate data
errors. An official at MCA-M stated that there were probably some duplicate entries in
past data collection, particularly from the ABCs. The ABCs could have duplicate data
entries because one beneficiary may participate in several programs. Additionally, a
beneficiary’s name may appear twice—once with just the first name, and again with first
and last.

The audit team noted examples of these types of data duplication at the Vatomandry
ABC. The ABC reported that 1,198 people attended training to produce the litchi fruit;


                                                                                     15 

however, it registered several of the attendants twice. The fact that there were fewer
attendants than reported—1,192 attendants (0.5 percent error rate)—should have been
reported to MCA-M. Although the error rate is below our materiality threshold rate of 10
percent, the ABC did not have controls in place to provide reasonable assurance that
attendees were not double counted. The ABC had access to a computer that could have
been used to record attendee names and then sort them to identify any duplicate data.

A lack of supporting documentation was evident in the field offices. Three out of the four
field offices that the audit team visited did not have readily available supplemental
documents to support their data. Staff at one land tenure office admitted that it would be
difficult for them to provide supporting documents to reference the results for an
indicator—number of land conflicts resolved. The agents who worked there did not have
an established and documented methodology to collect and maintain their data and
record in their meeting notes the number of land conflicts they resolved. They stressed
that it would take several hours to retrieve the supplemental document, as they would
need to look through several meeting notes to support the data.

The audit team found similar problems regarding supporting documentation at the
Vatomandry ABC office. Staff there reported that they had provided assistance to 154
producers, but they had documents to support that they assisted 141 producers. They
could not provide supporting documents for 13 producers because the district agent in
Toamasina II (another town in Zone 3) had the remaining supporting documents. The
audit team was unable to reach that agent.

Although MCA-M had documentation to support what it reported to MCC, the system for
collecting data was ineffective, thereby increasing the risk of incomplete data. For
example, due to the lack of clarity in a progress report provided by the Land Tenure
Project implementing entity (PNF), MCA-M had to use a secondary report to support the
results of one of the three districts listed in the quarter 7 M&E report. Similarly, for ABIP,
MCA-M used a combination of spreadsheets provided by the ABCs, contractors’ reports
and summary reports prepared by the ABIP team to support its data.

Three of the field offices visited (of a total of 23) also made calculation or transcription
errors. As instructed by MCA-M, the Vatomandry ABC used Excel spreadsheets to
record the number of visitors who requested business opportunity information. Several
ABC staff members from multiple locations entered this information onto separate
spreadsheets. During the consolidation process, the ABC did not notice that the
sequential numbering it used to count the number of visitors was incorrect. As a result,
the ABC incorrectly counted the number of visitors. As of March 2007, the reported
number of visitors was 317, while the actual number was 292 (a difference of 8 percent).
This error was within the materiality threshold of 10 percent.

Due to minor addition errors, the Faratsiho land tenure office’s supporting documents
differed slightly from the reported results. For example, when preparing its progress
reports, the staff reviewed the names included in the database and manually counted
the number of unique names. This manual process was particularly challenging because
for some of the entries, the database did not have the beneficiaries’ full names, and
there was a chance that a name could be in the database twice. For quarters 1 to 6, the
office reported 218 beneficiaries, but had supporting document for only 205 (a difference
of 6 percent). Although this was within the materiality threshold, the land tenure office
lacked internal controls, such as a regular verification process of the data, to provide


                                                                                       16 

reasonable assurance that the database information was correct. Refer to Appendix IV
for more examples.

According to GAO’s Standards for Internal Control in the Federal Government, internal
control and all transactions and other significant events need to be clearly documented,
and the documentation should be readily available for examination. The documentation
should appear in management directives, administrative policies, or operating manuals
and may be in paper or electronic form. Furthermore, a variety of control activities are
used in information processing, including edit checks for entered data, accounting for
transactions in numerical sequences, and comparing file totals with control accounts.
Additionally, transactions should be promptly recorded to maintain their relevance and
value to management in controlling operations and making decisions.

A lack of internal control measures contributed to data inaccuracy in the reports that
were received from 3 of the 23 ABC and land tenure MCA-M field offices, and submitted
to MCC. Although the agents at the MCA-M field offices demonstrated that they were
knowledgeable about their work, they also explained that they did not practice certain
internal control standards, such as a standard methodology and data verification. For
example, the ABC in Vatomandry had problems with the number of producers receiving
technical assistance. One of the district agents did not consistently use the same
methodology for certifying the numbers he reported, which increased the likelihood that
certain producers (beneficiaries) may have been erroneously reported or excluded.
Similarly, an agent at the Ambatofinandrahana land tenure office stated that no one had
ever verified the data that his office reported to MCA-M. The regional PNF
representative collected the forms held by the CRIF (computerized land tenure offices)
agent and forwarded them to the National Land Administration Office so the data could
be consolidated and reported to MCA-M.

Not only the field offices but the MCA-M office demonstrated weaknesses in the internal
control process. MCA-M staff had very few internal controls to provide reasonable
assurance that the data they received were accurate. For example, one of the ABIP
managers stated that he was unable to validate the information that the ABCs submitted
for quarters 6 and 7 and could only hope that the offices verified the data before sending
them to MCA-M. Several MCA-M officials believed that the implementation of its new
M&E software (TecPro) would greatly reduce the risk of duplicate entries; however, the
possibility of data duplication still existed. For example, even though Vatomandry ABC
staff transferred its prior data into TecPro, it did not review the data to ensure their
accuracy before entering them into TecPro. Further, MCA-M did not have a plan to
validate old data before importing them into TecPro.

MCC relied heavily upon its staff’s professional opinions to evaluate the reliability of the
data presented in MCA-M’s quarterly M&E reports. According to MCC officials, the
sector leads (MCC project manager) were responsible for evaluating the reasonableness
of the reported results. In addition, although the sector leads had detailed understanding
of the projects’ status, communicated with their MCA counterparts almost daily, and read
reports from contractors and the implementing partners, they did not conduct sufficient
field visits to verify the results reported by MCA-M.

Even though MCA-M was in the process of transitioning to a stronger data collection
system, errors throughout the existing report system undermined the reliability of
previously reported results and threatened to limit MCC’s ability to accurately evaluate


                                                                                     17 

the compact's performance. Because these sources did not use standardized
documents, there is a significant risk that the MCA-M M&E staff could misinterpret these
documents. For example, they were using Excel spreadsheets with lists of farmers, but
from the documentation it was not clear whether the lists supported the number of
people who attended the workshops or the number of people who adopted what was
taught. Additionally, there was a significant risk that certain results were overlooked and
not reported due to the non-standardized method for collecting data, resulting in the
potential that MCC could use inaccurate data in its reports to Congress and the public.
Therefore, the Office of Inspector General is making the following recommendation:

       Recommendation No. 3: We recommend that the Millennium Challenge
       Corporation’s Vice President of the Compact Implementation Department,
       issue guidance on the methodology that the Millennium Challenge
       Account-Madagascar office should use to conduct a quality control check
       of prior data before importing the data into a new database system, and
       how Millennium Challenge Corporation staff should test the accuracy of
       the data during site visits.



Reported Data to MCC Stakeholders Did
Not Accurately Reflect the Compact
Projects’ Current Progress in Madagascar
 Summary: Although most of the information that MCC provided to its stakeholders
 reflected the reports that MCA-M submitted, some of the data in its 2006 Annual
 Report did not accurately reflect the progress of the projects in Madagascar. For
 example, MCC reported that 361 land certificates were issued, when in fact only 353
 were issued as of December 2006. According to the Millennium Challenge Act of
 2003, MCC should provide to the public a detailed description of the objectives and
 measures for results of the program or project. The audit team was told that this was a
 result of timing differences between when MCA-M was scheduled to report the
 information and when MCC is required to issue its annual report. The quarterly
 progress report schedule is based on when the compact country goes entry into force,
 and is therefore not on the same calendar as MCC’s fiscal year. The timing
 differences in the reporting schedule may cause MCC to underreport on the projects’
 progress since the compact’s entry into force.

MCC provides information to Congress and the public, through its Web site, about the
amount of funding and project progress in each compact country. It posts Country Status
Reports on its Web site, provides a quarterly report in the Federal Quarterly, and reports
to Congress and the public in its Annual Reports and Budget Justification. Although most
of the information that MCC provided to its stakeholders reflected the reports that MCA­
M submitted, some of the data in its 2006 Annual Report did not accurately reflect the
progress of the projects in Madagascar. According to a press release about the 2006
Annual Report and an MCC official, the data reflected the status of projects as of
December 2006. However, some of the data MCC reported in the 2006 Annual Report
were based on October 2006 information. For example, in one section of the report,
MCC stated that “the local land management office in Faratsiho had issued 361 land
certificates as of December 31, 2006.” MCC received this information via an e-mail
communication from MCA-M in October 2006, when in fact, supporting documents


                                                                                    18 

reviewed indicated that only 353 land certificates were issued as of December 2006.
Further, the 2006 Annual Report indicated that ABCs reported receiving 1,822 visitors,
on the basis of information from the M&E Quarterly Report for July–September 2006.
The M&E Quarterly Report for October–December 2006 stated that actually there were
2,589 visitors. Furthermore, the 2006 Annual Report stated that 1,800 farmers had
received technical assistance from local ABCs, while the M&E Quarterly Report for
October–December 2006 reported 4,502 farmers had received technical assistance.

According to Section 612 (A)(1)(C)(ii) of the Millennium Challenge Act of 2003, the MCC
shall make available to the public on at least a quarterly basis the following information:
For assistance provided under section 605, a description of the program or project,
including a detailed description of the objectives and measures for results of the program
or project. Furthermore, section 613 of the act states that not later than March 31, 2005,
and each March 31 thereafter, the President shall submit to Congress a report on the
assistance provided under section 605 during the prior fiscal year12. The report shall
include the progress made during each year by the country toward achieving the
objectives set out in the compact entered into by the country and the extent to which
assistance provided under section 605 has been effective in helping the country to
achieve such objectives.

MCC’s Implementation Working Group has defined a process that includes submission
of a preliminary, informal Quarterly Progress Report (QPR) 30 days after the close of the
quarter and formal submission of a finalized QPR on or about 70 days after the close of
the quarter. This would mean that the final quarter 6 report (October–December) would
be due to MCC by the second week of March, potentially limiting its use in the Annual
Report, which is due no later than March 31 each year.

As a result of the due dates for the QPR and the Annual Report, the data MCC reported
to its stakeholders did not accurately reflect the projects’ progress, and in some cases
actually underreported the progress that MCA-M had made since entry into force.
Therefore, to provide stakeholders with an accurate picture of program
accomplishments, given that there are often timing differences in reporting information,
the Office of Inspector General is making the following recommendation.

       Recommendation No. 4: We recommend that the Millennium Challenge
       Corporation’s Vice President of Congressional and Public Affairs disclose
       the effective date of the information being used in reports to stakeholders.




12
  MCC reports the progress of its compact programs on the calendar year (i.e. January through
December) while its fiscal year for accounting purposes is October through September.


                                                                                       19 

EVALUATION OF
MANAGEMENT COMMENTS
The MCC provided written comments to our draft report that are included in their entirety
in Appendix II. In its response, the MCC agreed with the recommendations in the draft
report.

In response to Recommendation No. 1, MCC agreed with the recommendation and
mentioned that the MCA-M office has hired consultants to develop a monitoring and
evaluation procedures manual which they used to train the field staff and implementing
entities. MCA-M updated the manual in January 2007 based on revisions made on data
collection plans for the Agricultural Business Investment Project (ABIP). MCC also
mentioned that in June 2007, each Agricultural Business Center had a staff trained in a
new database system, TECHPRO, in which all the centers will use the same data
collection forms.

In regards to the Land Tenure Project, MCC stated that the implementing entity, PNF,
required each land office to use a standard data collection format and established a
monitoring and evaluation unit called Observatoire Foncier in March 2007. Furthermore,
MCC reported that MCA-M has hired two consulting firms to reinforce the land offices’
data collection and reporting capacity.

In addition, MCC reported that it required its implementing entities to perform data
collection and use common definition for all indicators that they report to MCC. It also
mentioned that MCA-M conducted regular data quality reviews to ensure that the
implementing entities who are responsible for collecting data meet the required
standards and stressed that MCA-M will continue to provide training to its staff and
contractors. Furthermore, MCC believed that the steps mentioned above will ensure that
the staff are properly trained, thereby precluding the need for a new memorandum.

The IG has revised the recommendation and now requires MCC to provide clarifying
guidance to the Millennium Challenge Account – Madagascar and its field support staff,
regarding methodologies involving data collection and specific definitions of the
indicators.

For Recommendation No. 2, MCC agreed with the recommendation and stated that
MCA-M has already begun to revise the Finance Project targets with guidance from
MCC technical staff. The revisions will be reflected in the finalized Monitoring and
Evaluation Plan scheduled for March 31, 2008.

For Recommendation No. 3, MCC concurred with the recommendation and stated that it
has already issued monitoring and evaluation guidelines to its MCA offices that address
indicator definitions, and data collection and reporting, which were first published in May
2006 and revised in January 2007. The guidelines also required that MCA offices
conduct an independent data quality review that was conducted in Madagascar in mid­
2007 and a second review planned for mid-2008.



                                                                                    20 

Furthermore, MCC explained that it convened a one-week training exercise, in April
2007, that covered indicator definition and data collection and reporting, which the MCA­
M staff attended; and an M&E specialist visited Madagascar in September 2006 to
provide guidance on process and information system support. However, MCC stated
that it is the MCA offices responsibility to develop a specific data collection system and
to issue guidance on data collection and reporting.

The IG dropped its Recommendation No. 3, instead we revised Recommendation No. 1
to include the issues dealing with clarifying specific guidelines to the implementing
entities and field offices staff.

For Recommendation No. 4, renumbered 3, MCC agreed with the recommendations and
explained that its Monitoring and Evaluation Guidelines required a data quality review.
According to MCC, after the IG’s field visit, MCA-M implemented a database with
internal quality controls that assigned unique beneficiary codes to each entry, and
believes this action addresses the IG’s recommendation.

For Recommendation No. 5, renumbered 4, MCC agreed with the recommendation and
has already begun to provide the effective date of the information that it uses in its
reports, and mentioned that all data referenced will be dated in the 2007 Annual Report.

Based upon MCC’s written comments, the OIG considers that a management decision
has been reached on the recommendations, 2, 3 and 4. At the time MCC provides a
response to the revised recommendation number 1, a final management decision can
then be made.




                                                                                   21 

                                                                                 APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General audited the Millennium Change Corporation’s (MCC)
program in Madagascar in accordance with generally accepted government auditing
standards. The audit reviewed milestones and targets from entry into force until March
31, 2007, and was augmented by more current data when available. The $110 million
compact entered into force on July 27, 2005. Through March 31, 2007, MCC had
disbursed $13.5 million of the compact’s funds to Millennium Challenge Account-
Madagascar (MCA-M).

The audit was conducted in Washington, DC, and in Madagascar during the audit team’s
site visit in June 2007. In addition, the audit team visited MCA-M offices and beneficiaries in
or near the following cities in Madagascar: Antananarivo, Antsirabe, Ambatofinandrahana,
Faratsiho, and Vatomandry. Auditors also met with various implementing entities tasked
with helping MCA-M implement its projects, and the team interviewed MCA-Madagascar’s
procurement agent, Gesellschaft für Technische Zusammenarbeit.

To reach its conclusions regarding MCA-M’s three projects, the audit team relied on
interviews with MCC staff, MCA-M personnel, and implementing partners. The auditors
used these interviews to help assess the program’s work plans, financial reports, quarterly
progress reports, Monitoring and Evaluation (M&E) Plan, and information shared with
Congress and the public. The audit team also requested and examined supporting
documentation for the quarterly progress reports.

The audit team examined the internal control environment. Auditors identified and
assessed the relevant internal controls. Auditors tested for various controls, including
supporting documentation, calculation errors, reverification procedures, guidance, and
training. In addition, the auditors reviewed prior audit reports regarding MCC’s program in
Madagascar and considered the relevant findings.


Methodology
To answer the three audit objectives, audit steps were established to determine the
following:

       •	 Whether MCA-Madagascar had established plans and milestones to monitor
          and implement the compact’s projects;
       •	 Whether the program was on schedule according to the established plan and
          milestones and whether the overall program was having an impact; and
       •	 Whether data reported by MCC, MCA-M, and the implementing partners to
          Congress and the public reflected the program’s progress.

Specifically, the audit team did the following:




                                                                                            22
                                                                   APPENDIX I


•	 Interviewed MCC personnel, MCA-M staff, and implementing partners to gain
   an understanding of the overall objectives of the program and its challenges.

•	 Conducted a detailed examination of supporting documentation for the three
   projects to verify that the intended results were being achieved. The
   examination consisted of reviewing relevant documentation, conducting
   interviews, and making site visits.

•	 By assessing whether the program was on schedule according to the
   established work plans and M&E Plans, determined a materiality threshold of
   10 percent of the intended targets.

•	 Interviewed beneficiaries to determine how MCC-funded programs had
   affected or improved their lives.

•	 Determined the potential impact of achieving or not achieving selected
   milestones and targets by the planned target dates.

•	 Evaluated the budgets for the three projects.




                                                                         23 

                                                                                APPENDIX II 




MANAGEMENT COMMENTS



MEMORANDUM	                                                               December 14, 2007

To: 	          John Phee, Assistant Inspector General, Millennium Challenge
               Corporation

From:          	Michael Casella /s/
               Deputy Vice President, Millennium Challenge Corporate

Regarding: 	   Response to the Draft Report on the Audit of the Millennium Challenge
               Corporation Programs in Madagascar

This memo serves as MCC’s management response to the Draft Report on the Audit of
the Millennium Challenge Corporation Programs in Madagascar. We also consider this
response to be the management decision for the recommendations in the draft audit.

MCC appreciates the opportunity to comment on this audit of our Madagascar program.

MCC vests in Madagascar implementation responsibility for the country’s Compact
program. Country ownership of Compact implementation is a key principle of MCC, and
consistent with this principle, MCC believes that the best way to implement the
recommendations in this report is to ensure that we provide clear and consistent guidance
to all of our Compact countries, and to provide any technical assistance as our partner
countries undertake their management responsibilities. Our detailed response describes
how we are following this approach to address the findings and recommendations in the
audit report

Recommendation 1: We recommend that the MCC Vice President of the Compact
Implementation Department issue a memorandum to the MCA-Madagascar staff that
requires training on data collection, and clearly defines indicators to its field offices and
implementing entities.

MCC Response 1:

MCC concurs with the recommendation that MCA staff be trained in collecting data and
defining indicators, and that indicators be clearly and consistently defined. For that
reason, MCA hired consultants to develop an M&E procedures manual that addresses
data collection and indicator definitions, and in July 2006, field staff and implementing


                                                                                            24
                                                                               APPENDIX II


entities were trained in the manual. The manual was updated in January 2007 based on
revised data collection plans for the Agricultural Business Investment Project (ABIP).
An abbreviated version of the manual was presented to all Agricultural Business Centers
(ABCs) in January 2007, and all staff received training in the manual. Additionally, all
ABCs now have staff dedicated to information management; in June 2007, these staff
were trained in a new database system (TECHPRO). All ABCs use the same data
collection forms for data entry into this system.

For the land project, a standard data collection format is imposed by the Implementing
Entity (PNF) across all land offices. The PNF also established a monitoring and
evaluation unit called the Observatoire Foncier, which began its activities in March 2007
and developed a new data collection format that all local land offices are now using.
Additionally, MCA has hired two consulting firms responsible for reinforcing land
offices’ capacity, inter alia, for data collection and reporting.

MCC already requires that implementing entities are capable of performing data
collection and use a common definition for all indicators reported to MCC. Regular data
quality reviews are also carried out to ensure that entities responsible for data collection
meet these standards. MCA-Madagascar will continue to provide the required training to
its staff and contractors as implementation of the projects progresses.

We believe that these steps will ensure mandatory training on data collection and clear
definition of indicators across field offices and implementing entities, and obviate the
need for a new memorandum from the Vice President of Compact Implementation on this
issue. The use of the reporting system described above, combined with periodic visits by
MCC technical staff, will also ensure that the data problems noted in the IG report are
being addressed.

Recommendation 2: We recommend that the MCC’s Vice President of the Compact
Implementation Department reassess and revise the targets for the finance project, and
document the new targets in a revised M&E Plan by March 31, 2008.

MCC Response 2:
MCC concurs with the recommendation to reassess and revise the Finance Project
targets. This work has already been undertaken by MCA-Madagascar with guidance
from MCC. These new targets will be reflected in the revised Monitoring and Evaluation
Plan, which will be finalized by March 31, 2008.

Both MCC and MCA-Madagascar have been aware of the issue raised by this
recommendation, namely that the targets are conservative due to external projects
supporting microfinance institutions at the national level and increases in inflation
increasing the total value of loans. In order to address this issue, MCA-Madagascar is
shifting the focus from national and regional level indicators to the specific activity area,
allowing MCA-Madagascar access to data gathered directly by implementing partners.




                                                                                       25 

                                                                            APPENDIX II 



MCC would also like to note that M&E Plans include indicators that are a function of
things other than solely implementation progress. For the Finance Project in particular,
MCA and MCC consider it important to track indicators related to the financial
environment—i.e., external conditions necessary for the project’s success. These data
were intended to shed light on key market and institutional conditions leading up to the
launch of the project in each of the five zones.


Recommendation 3: We recommend that the MCC Vice President of the Compact
Implementation Department issue guidelines that would describe how the MCA-
Madagascar and field offices should document the collection of data, report the data, and
define project indicators to its field staff before they reach the project implementation
phase.


MCC Response 3:
MCC concurs with the recommendation to provide MCA Madagascar, and all
Accountable Entities, with guidance on MCC’s requirements for data collection,
reporting and indicator definitions. Monitoring and evaluation guidelines have already
been issued to all Accountable Entities. These guidelines address, inter alia, indicator
definitions, data collection and reporting; they were first published on MCC’s website in
May 2006, and revised and expanded in January 2007. The guidelines also require
regular independent data quality reviews. Such a review was completed for Madagascar
in mid-2006 and a second is planned for mid-2008.

Following up on these guidelines, an MCC M&E specialist traveled to Madagascar in
September 2006, focused on providing guidance on country-specific processes and
information systems that support reporting. In April 2007, MCC convened a one-week
“M&E College” in Washington, DC which MCA-Madagascar attended. The week’s
agenda covered, inter alia, indicator definition and data collection and reporting.

Under the MCC implementation structure, developing specific data collection systems for
each activity is the responsibility of the MCA Accountable Entity. Further, the MCAs
are tasked with issuing guidance on an activity-by-activity basis for the documentation
and reporting of data. MCC will continue to work with MCA Madagascar to ensure that
the monitoring and evaluation guidelines are followed, and will use the upcoming data
quality review to identify and address any remaining issues in this area.


Recommendation 4: We recommend that the MCC Vice President of the Compact
Implementation Department issue guidance on the methodology that the MCA-
Madagascar office should use to conduct a quality control check of prior data before
importing the data into a new database system, and how MCC staff should test the
accuracy of the data during site visits.




                                                                                    26 

                                                                               APPENDIX II 



MCC Response 4:

MCC concurs with the recommendation to provide guidance on data quality. Such
guidance is included in our Monitoring and Evaluation Guidelines, including a
requirement for data quality reviews. MCC appreciates the IG raising this issue during
their June 2007 mission. Following the IG mission, a database was put in place by MCA-
Madagascar with internal quality controls that assign unique beneficiary codes to each
entry. MCC believes that this action addresses the data quality control issue raised in the
recommendation, and that additional guidance, beyond that contained in the Monitoring
and Evaluation Guidelines, is no longer necessary.

MCC relies on the data quality audit for an independent assessment of the accuracy of the
data; therefore, MCC staff does not directly test the accuracy of the data during site visits.
MCC approves the Terms of Reference for these data quality audits to ensure that the
methodology is consistent with our guidelines. As mentioned above, a data quality
review was completed in mid-2006 and a second is planned for mid-2008.

Recommendation 5: We recommend that the Vice President of Congressional and
Public Affairs disclose the effective date of the information being used in reports to
stakeholders.

MCC Response 5:

MCC concurs with this recommendation, and has already put it into effect. All data
references will be dated in this year’s Annual Report. At a time when only a few
countries had begun implementation, MCC relied on individual information requests to
the MCA units, which led to the inconsistencies (albeit below the materiality threshold of
ten percent) cited in the IG report. Today, with a greater number of countries in
implementation, we have a regular, systematic reporting system to generate data for
reports to stakeholders. Because we rely on reported data, there will necessarily be a
time lag in reporting results, which will lead, in turn, to the under-reporting of results
cited in the section of the audit report entitled “Reported Data to MCC Stakeholders Did
Not Accurately Reflect the Compact Projects’ Current Progress in Madagascar.”




                                                                                       27 

                                                                                 APPENDIX III

     Explanation of Vatomandry ABC’s Interpretation of the ABIP
   Indicators Compared to the Correct Interpretation Based on the
                          2007 M&E Plan
        Indicator            Vatomandry ABC’s Interpretation                    2007 M&E Plan
                                                                                 Requirements
Number of               The business plans were reported only if they     Did not require a business
business plans.         had been written, validated, and used to          plan to be financed before
                        obtain financing. The staff said it was not       it was reported to MCC.
                        enough to simply write a business plan for a
                        beneficiary; they wanted to ensure that it was
                        good enough to actually secure funding.
Number of               The ABC stated that it counted any producer       Takes into consideration
producers or            or enterprise that was adopting technical         the “spillover” effect of the
enterprises             assistance, regardless of who provided the        ABIP on the other farmers
receiving technical     technical assistance. For example, if a           copying from ABC clients;
assistance.             producer received technical assistance from       does not mention counting
                        an international donor, the ABC included that     individuals and business
                        producer in its total. Additionally, the ABC      helped by other donors.
                        staff stressed that it counted only individuals
                        and companies that adopted the technical          Calls for capturing the
                        assistance taught to them. The ABC believed       number of beneficiaries
                        that merely providing technical assistance        and the number of
                        was not enough to ensure that meaningful          beneficiaries adopting the
                        assistance had been provided.                     techniques taught to them.
Number of               Because the ABC wanted to do more than            Calls for capturing the
associations,           simply count organizations that had been          number of organizations
cooperatives, and       contacted, it counted only organizations that     assisted by the ABCs and
enterprises             also had written a business plan, followed the    the number of
benefiting from the     business plan, and provided good managerial       organizations adopting the
technical               services to their members.                        techniques taught to them.
assistance.
Number of               The ABC said it counted the number of             Does not define what
producers utilizing     individuals who had adopted a majority of the     percentage of a
technical               techniques taught to them by the ABC. For         beneficiary’s instruction
assistance              example, if the ABC taught four skills, the       must be “adopted.”
provided to them.       beneficiary had to use three of the four skills
                        before being reported.
Number of               The ABC said it counted the number of             Does not define what
enterprises utilizing   enterprises that had adopted a majority of the    percentage of a
technical               techniques taught to them by the ABC.             beneficiary’s instruction
assistance                                                                must be “adopted.”
provided to them.
Number of               The ABC staff decided that each cooperative       Requires the ABC only to
individuals             it established not only had to file its           count the number of
registered with a       administrative paperwork but also complete        registered cooperatives.
cooperation or          other tasks such as creating business plans
association.            and budgets. The ABC added these
                        additional criteria because it wanted to
                        ensure that the cooperatives were self-
                        sufficient and could actually function on their
                        own without additional support.
                                                                                              28 

                                                      APPENDIX IV



                 Analysis of Whether the Faratsiho Land Tenure
                 Office Had Supporting Documents for the Data
                         Results It Reported to MCA-M
                              (Audited)
                          Quarters 1 to 7             Percent of Data
Data Element       Reported               Supported     Supported
Number of            419                    419            100
Demands
Number of Land       374                    374            100
Certificates
Issued
Number of            233                    219            94%
Beneficiaries
Number of             9                      3             33%
Oppositions
Number of             4                      0             0%
Resolved Cases
Number of Area       121                    121           100%
Secured




                                                                 29 

U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

            Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
